           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  FOLLOW-UP: THE SOCIAL SECURITY
 ADMINISTRATION’S PROCESSING OF THE
    INTERNAL REVENUE SERVICE’S
    OVERSTATED WAGE REFERRALS

      June 2008    A-03-07-17067




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      June 16, 2008                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: The Social Security Administration’s Processing of the Internal Revenue
           Service’s Overstated Wage Referrals (A-03-07-17067)


           OBJECTIVE
           Our objectives were to determine whether the Social Security Administration (SSA) had
           (1) processed the Internal Revenue Service's (IRS) overstated wage referrals and
           (2) coordinated with the IRS to streamline or automate the referral process.

           BACKGROUND
           Each year, a number of workers contact the IRS to dispute earnings reported under
           their Social Security number (SSN) and the associated taxes. If the IRS concurs with
           the worker, it sends a referral to SSA stating the reported wages do not belong to the
           worker. The IRS does not collect Federal income tax from the worker on the disputed
           earnings and notifies SSA to correct its Master Earnings File (MEF) 1 record using
                                                                                               2
           information provided on the Form 9409 IRS/SSA Wage Worksheet (wage referral).
           Upon receiving the wage referral, SSA uses the Item Correction 2.8 (ICOR) process in
           the Earnings Modernization system to remove the disputed earnings from the worker’s
           earnings record. 3

           Our March 2003 report stated that, as of March 2002, the IRS had sent SSA
                                                                               4
           approximately 12,000 disputed wage referrals for Tax Year (TY) 1999. We found that

           1
            The MEF contains all earnings data reported by employers and self-employed individuals. The data are
           used to determine eligibility for, and the amount of, Social Security benefits.
           2
               See Appendix B for a copy of Form 9409.
           3
             SSA uses the ICOR process to maintain accurate postings to individuals’ earnings record. ICOR allows
           the Agency to add unposted earnings and change or delete posted earnings on workers’ MEF records.
           ICOR also permits the movement of posted earnings to and from the Earnings Suspense File (ESF)—a
           repository of unmatched wage items.
           4
             The Social Security Administration's Processing of Internal Revenue Service Overstated Wage Referrals
           (A-03-02-22068), March 2003.
Page 2 - The Commissioner


SSA had not processed these referrals to determine whether workers had overstated
wages on the MEF. By not reviewing these IRS wage referrals, SSA was missing an
opportunity to correct individual earnings records, prevent the misuse of SSNs, and
reduce improper benefit payments. To correct the deficiencies, we recommended that
SSA:

•   Begin processing the backlogged IRS wage referrals, starting with the referrals that
    were most likely to (a) reduce overpayments, such as those related to individuals
    closer to retirement age, and (b) minimize identity theft, such as those with higher
    disputed wages over multiple TYs. The Agency agreed to develop a work plan to
    begin processing the workload considering their current budget/resource constraints.

•   Work with the IRS to establish and implement procedures to process the wage
    referrals, which could include (a) the IRS obtaining sufficient information from the
    numberholder (NH) to allow SSA to remove the wages without additional
    development; (b) SSA requesting that future referrals be provided electronically to
    minimize handling at SSA; (c) the IRS requesting that the NH contact SSA to correct
    the wages; or (d) the IRS requesting that the employer send a corrected wage report
    to SSA. The Agency agreed to form a workgroup with the IRS to revisit the overall
    process and work with the IRS to implement processing improvements that
    streamline and/or automate wage referral workload.

RESULTS OF REVIEW
Overall, we found that SSA had an effective process in place for the receipt and
disposition of the IRS wage referrals. Based on our review of sample referrals for
TY 1999, we found the Agency had processed approximately 97 percent of the
backlogged wage referrals identified in our prior report. Furthermore, we found SSA
made significant improvements in processing its current workload of IRS wage referrals.
The Agency processed about 89 percent of the wage referrals it received from the IRS
during Fiscal Years (FY) 2005 and 2006. Moreover, the Agency had taken steps to
streamline the wage referral process by (a) developing a tracking system for the receipt
and disposition of the referrals; (b) establishing operating instructions for processing the
wage referrals to ensure consistency; and (c) coordinating with the IRS to ensure the
wage referrals included all relevant information necessary for processing.

Although SSA was effective in processing the wage referrals, we found it had not taken
steps to remove other similar questionable wages that were posted to NHs’ earnings
records. We estimate that, for 2,940 (25 percent) of the 12,000 TY 1999 wage
referrals, the NHs had approximately $72.4 million in questionable wages still posted to
their earnings record for TYs 1995 to 2005. Failure to remove these questionable
wages could lead to the NHs qualifying for and/or receiving higher Social Security
benefits than they would have otherwise received.
Page 3 - The Commissioner


BACKLOGGED WAGE REFERRALS

To determine whether SSA had processed the backlogged wage referrals identified in
our March 2003 report, we selected for review 200 wage referrals for TY 1999
representing approximately $2 million in disputed wages. These wages were
disclaimed by 197 NHs with the following characteristics as of 2007:

•   the NHs ranged in age from 19 to 93 years old, with an average age of 42;
•   about 54 percent of the NHs were U.S.-born citizens, while 46 percent were foreign-
    born;
•   5 of the NHs were deceased at the time of the review; and
•   the NHs disputed wages ranging from $15 to $72,600, with an average of $9,957.

Processed Wage Referrals

Based on our review of the 200 sample referrals, we found SSA processed
183 referrals (92 percent) by removing $1.8 million in disputed wages from the NHs’
                                                    earnings records and posting these
         Figure 1: Status of the 200 Sample         wages to the ESF or transferring the
                   Wage Referrals                   wages to another person’s record
                      TY 1999                       (see Figure 1). SSA removed the
                                                    disputed wages in Calendar Years
                                                    (CY) 2000 through 2006. Based on
                                                    our sample results, we estimate that
                                           Did Not  SSA processed approximately
 Posted to                                 Process
  ESF or                                            10,982 of the 12,000 backlogged
                                             3%
Transferred                                         wage referrals representing
to Another                                          approximately $106 million in
  Record                                            disputed wages. By removing these
   92%                                 No Action    wages, SSA has decreased the risk
                                       Required
                                          5%        the disputed wages will be used to
                                                    calculate or increase individuals’
                                                    Social Security benefits.

No Action Required for Wage Referrals

The Agency was unable to remove the disputed wages for 11 (5 percent) of the sample
wage referrals representing about $144,000 in wages because either the SSNs or the
Employer Identification Numbers (EIN) shown on the wage referrals did not match SSA
records. 5 In our prior audit, we noted the IRS occasionally sent wage referrals that
included data that did not match SSA records, and, in those instances, the Agency




5
  We were not able to determine whether the IRS resubmitted the wage referrals to SSA after correcting
the deficiencies because the Agency did not track this information.
Page 4 - The Commissioner


could not process these wage referrals. SSA established a new policy to return these
types of referrals to the IRS, indicating the data did not match SSA records (we discuss
this on page 6).

Unprocessed Wage Referrals

Additionally, we found there were 6 (3 percent) wage referrals representing about
$83,000 in disputed wages where SSA had not removed the wages from the NHs’
earnings records. In five cases, this appears to have been an Agency oversight
because the information included on the wage referrals matched Agency records. For
example, a 44-year-old woman had disclaimed $22,000 in wages that was reported by
a computer company in Nebraska. Although the SSN, TY, EIN, and wage amount
shown on the wage referral matched SSA records, SSA did not remove the disputed
wages from her MEF and post them to the ESF. Our review of the NH’s earnings
record showed these wages were not consistent with her earnings history.
Furthermore, we found that the surname shown on the Wage and Tax Statement
                                              6
(Form W-2) did not match the NH’s Numident record, which further supported that the
wages did not belong to the NH. We believe the wages were posted to the NH’s record
                                                            7
in error due to one of SSA’s name validation edit routines.

For the remaining case, the Agency could not remove the disputed wages from the
NH’s earnings record because the wages were not subject to the Federal Insurance
Contributions Act tax. According to Agency staff, the ICOR system, which SSA
personnel use to make earnings corrections, was not designed to add, delete, or
transfer non-covered wages to and from a NH’s earnings record. Therefore, the
$33,000 in non-covered wages the NH disclaimed will remain on his earnings record.
According to Agency staff, there is no SSA requirement or policy mandating the
correction of non-covered earnings as these wages cannot be used to qualify
individuals for Social Security benefits.

CURRENT WAGE REFERRALS

We found SSA made significant improvements in processing its current workload of IRS
wage referrals. In FYs 2005 and 2006, SSA received wage referrals for 28,278 NHs
who had disputed the wages for prior TYs. SSA processed the wage referrals for
25,149 NHs (89 percent) by taking the following actions (see Figure 2).




6
   The Numident file houses records of original and replacement SSN cards issued over an individual's
lifetime, as well as identifying information such as date of birth, place of birth, and parents’ names.
7
 SSA’s SSN/Name Validation performs up to 22 routines that manipulate the reported name in various
ways. The rules attempt to match the data against the Numident.
Page 5 - The Commissioner



                                                           •   For 57 percent, the overstated
         Figure 2: Status of Current Wage
                                                               wages were removed from the
                     Referrals                                 NHs’ MEF records and posted to
                     FYs 2005 and 2006                         the ESF.
                                                           •   For 30 percent, no action was
                                                               taken because SSA had previously
                                                               removed the disclaimed wages.
                               Transferred
     Returned to
                   Processed    to Another                 •   For 9 percent, SSA returned the
                      2%
       the IRS                    Record                       wage referrals to the IRS because
         9%                         2%                         of missing or inaccurate information
                                                               related to the SSN, wage amount,
                                                                                         8
                                                               worker’s address, or TY.
                                                           •   For 2 percent, SSA had processed
                                                               the referrals but had not indicated
     Wages                                     Posted to       what action was taken. 9
     Already                                    the ESF
    Removed                                       57%      •   For 2 percent, the wages were
      30%                                                      transferred to the correct earnings
                                                               record.

At the end of FY 2006, SSA had wage referrals for 3,129 NHs (11 percent) that were
pending disposition. By processing the current wage referrals timely, SSA has
prevented the continued misuse of NHs’ SSNs in some instances and reduced the risk
of improper payments.

STREAMLINED WAGE REFERRAL PROCESS

SSA made several improvements that allowed the Agency to effectively process the
backlogged referrals and properly manage their current workload of referrals. We
found the Agency made the following improvements.

    Operating Procedures. In April 2004, SSA developed detailed operating procedures
for the IRS wage referrals to ensure staff consistently processed the wage referrals in
accordance with Agency policy. 10 These procedures covered the receipt, disposition,




8
  We could not determine whether these wage referrals were resubmitted because SSA did not track this
information.
9
  This information was not available because SSA did not start tracking the disposition of the wage
                     nd
referrals until the 2 quarter of FY 2005.
10
  Revised Office of Central Operations (OCO) Instruction, Processing IRS/SSA Wage Worksheet-Form
9409, April 12, 2004.
Page 6 - The Commissioner


and retention of the IRS wage referrals. 11 The new procedure allows SSA to remove
the disclaimed wages based on the IRS’ investigation and eliminates the need for SSA
to conduct further earnings development.

   Coordination with the IRS. In FY 2003, SSA staff met with IRS staff on several
occasions to discuss ways to improve the wage referral processes for both agencies.
Based on those meetings, SSA and the IRS made the following improvements to help
ensure SSA could process the wage referrals it received from the IRS.

•     The IRS agreed to ensure all sections of the wage referrals were completed to
      include the results of the IRS investigation as well as the contact information for the
      IRS technicians who prepared the wage referral form.

•     The two agencies agreed that SSA would return wage referrals that could not be
      processed because of missing or inaccurate information.

•     The IRS agreed to update the wage referral form by annotating when a NH disputed
      wages because of identity theft. However, we found that SSA’s new operating
      procedures did not require that staff annotate this information in the ICOR system.
      Given that ICOR is SSA’s system of record for documenting actions taken for
      earnings discrepancies, we believe it should reflect when a NH has disclaimed
      wages due to identity theft. This additional information may help SSA in determining
      whether a NH has other similar questionable wages posted to their earnings record
      (we discuss this on page 7).

  Tracking System. In FY 2003, SSA began tracking the receipt and disposition of the
wage referrals using the Electronic Control Workload System (ECWS), which is a
custom-built batch control system. 12

QUESTIONABLE EARNINGS POSTED TO MEF

Although SSA was effective in processing the wage referrals, we found it did not always
take steps to remove other similar questionable wages that were posted to NHs’
earnings records. We estimate that 25 percent of the NHs who disputed the
TY 1999 wages had approximately $72.4 million in questionable wages still posted to
their earnings record for years before and after TY 1999. Failure to remove these
questionable wages could lead to the NHs qualifying for and/or receiving higher Social
Security benefits than they would not have otherwise received.




11
     See Appendix E for more details about the operating procedures.
12
  SSA uses ECWS to track other workloads, such as employer 800-number calls and a small portion of
the Annual Wage Reporting processing, such as Address Verifications and Report Corrections.
Page 7 - The Commissioner


Similar Questionable Wages

In our review of the MEF records for 200 sample cases, we found that, for 49 NHs
(25 percent), SSA had failed to remove approximately $1.2 million in questionable
wages posted to the NHs’ earnings records for TYs 1995 through 2005. About
$900,000 of these wages was posted to the NHs’ earnings records when the Agency
processed the TY 1999 wage referrals. Based on our review of the MEF and the ICOR
system, we found these wages appeared to be questionable because (a) the wages
were reported by the same employers who reported the disputed wages shown on the
TY 1999 IRS wage referrals; (b) the wages were not consistent with the NHs’ earnings
histories; and/or (c) in some cases, the NHs had previously informed SSA that they had
not worked for the employers and were victims of identity theft.

For example, in May 2001, a NH who lived in Texas had disclaimed $15,109 in wages
for TY 1996 that was reported by a commercial printing company in California. At that
time, SSA confirmed the NH had not worked for the company, and someone else was
using her identity. SSA removed the disputed wages from her earnings record and
posted them to the ESF. Two years later (June 2003), SSA processed the TY 1999
wage referral by removing $17,978 in wages from her earnings record that were
reported by the same company. At that time, the NH had an additional $108,000 in
wages still posted to her record from the same company for TYs 1995, 1997, 1998, and
2000 through 2002. As of July 2007, the company had reported an additional
$70,000 in wages to SSA for TYs 2003 through 2005 using the NH’s name and SSN.

As shown in the table below, most of the NHs had questionable wages posted to their
earnings record for multiple years. We found that 25 of the 49 NHs had questionable
wages posted for 2 or more years, up to 9 years.

              Table: Questionable Wages for TYs 1995 through 2005
                                                       Total Amount of
           Number of Years      Number of NHs        Questionable Wages
                  1                 24                      $127,419
                  2                 16                      $325,416
                  3                  1                         $7,921
                  4                  3                      $157,409
                  5                  2                      $205,411
                  6                  1                        $96,003
                  7                  1                      $109,180
                  9                  1                      $177,440
          Grand Total               49                    $1,206,199

Based on our sample results, we estimate that about 2,940 (25 percent) NHs who
disputed the TY 1999 wages had approximately $72.4 million in questionable wages
still posted to their earnings record for other TYs. Since SSA can use these
questionable wages to determine whether NHs qualify for and/or receive higher Social
Security benefits, SSA should be vigilant in removing the questionable wages to avoid
Page 8 - The Commissioner


overpayments. For example, we found that, for 2 of the 49 sample cases, the
questionable wages resulted in the NHs receiving an additional $3,997 in Title II
                                                   13
payments to which they may not have been entitled.

Procedures for Removing Other Questionable Wages

SSA staff informed us that the questionable wages were not removed from the NHs’
earnings records because the staff responsible for processing the wage referrals was
                                                                          14
limited to only reviewing NHs’ earnings records for the TY(s) in question. Therefore,
they were unaware that similar questionable wages were posted to the NHs’ record for
other years. Before streamlining the wage referral process, SSA required that staff
conduct earnings development and review the cases according to the Program
Operations Manual System (POMS), which instructs staff to review a NH’s earnings
record for years before and after the year in question. 15 This review process assists
SSA staff in determining whether the employer reported wages correctly for other years.
We believe the new operating procedures do not comply with POMS and should be
updated to allow for a more comprehensive review of an NH’s earnings record, as it
would allow SSA to identify other questionable wages that may need to be removed
from the NH’s earnings record.

CONCLUSION AND RECOMMENDATIONS

Overall, SSA was effective in processing the backlogged wage referrals identified in our
prior audit. Moreover, the Agency’s effort to streamline the wage referral process was
effective with timely processing the current wage referral workload. However, we
believe the Agency’s policy and procedures for identifying similar questionable wages
posted to the MEF should be strengthened because these wages could be used to
qualify or increase a NH’s benefit amount resulting in potential overpayments.

To improve SSA’s process for addressing the IRS wage referrals, we recommend SSA:

1. Review and process the wage referrals for the five sample cases of unprocessed
   IRS wage referrals discussed in the report.

2. Review the questionable wage items for the 49 cases identified in this audit where
   wages may need to be removed from individuals’ earnings records to prevent future
   improper payments.




13
  In the first case, the beneficiary received an additional $3,956 in benefit payments based on
approximately $109,000 in questionable wages posted to his MEF. In the second case, the beneficiary
received an additional $41 in payments based on about $9,000 in questionable wages posted to his MEF.
14
     Revised OCO Instruction, Processing IRS/SSA Wage Worksheet-Form 9409, April 12, 2004.
15
     POMS, RM 3870.015.A.3—Development of Earnings Records Inaccuracies.
Page 9 - The Commissioner


3. Modify current policy and procedures for wage referrals to (a) require that staff
   annotate in the ICOR system when an NH disclaims wages because of identity theft
   and (b) expand the review of the NH’s earnings record to include years before and
   after the year in question to ensure compliance with POMS. This will assist with
   determining whether additional questionable earnings are posted to the NH’s record.
   If so, have the appropriate office conduct further earnings development to determine
   if these wages should be removed from the NH’s earnings record.

AGENCY COMMENTS
SSA agreed with our recommendations. The full text of SSA’s comments is included in
Appendix F.




                                              Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – IRS/SSA Worksheet (Form 9409)

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology and Results

APPENDIX E – Social Security Administration Procedures for Processing Internal
             Revenue Service Wage Referrals

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
CY          Calendar Year
DEQY        Detail Earnings Query
ECWS        Electronic Control Workload System
EIN         Employer Identification Number
ESF         Earnings Suspense File
FY          Fiscal Year
ICOR        Item Correction 2.8
IRS         Internal Revenue Service
MEF         Master Earnings File
NH          Numberholder
OCO         Office of Central Operations
OIG         Office of the Inspector General
POMS        Program Operations Manual System
SSA         Social Security Administration
SSN         Social Security Number
TY          Tax Year


Forms
Form 9409   IRS/SSA Wage Worksheet
Form W-2    Wage and Tax Statement
                                Appendix B

IRS/SSA Wage Worksheet (Form 9409)
                                                                                    Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as other relevant Federal laws and regulations.

•   Reviewed Office of the Inspector General and Inspector General for Tax
    Administration reports, as well as other relevant documents.

•   Discussed with SSA staff the policy and procedures for processing the IRS/SSA
    Wage Worksheet (Form 9409).

•   Discussed policy and procedures related to Forms 9409 with staff at the Internal
    Revenue Service (IRS).

•   Obtained and reviewed the Operating Procedures for processing the Forms 9409.

•   Obtained and reviewed the 12,002 Tax Year (TY) 1999 Form 9409s identified in a
    prior audit.

•   Selected a random sample of 200 Forms 9409 from TY 1999 and analyzed each
    form using information from the Master Earnings File (MEF), 1 Earnings Suspense
               2                           3                   4
    File (ESF), Item Correction 2.8 (ICOR), and the Numident. See Appendix D for
    the sampling methodology and results.

Our audit did not include a test of (1) the completeness of the number of Forms 9409
the Agency maintained and (2) IRS internal controls related to the referrals sent to SSA.
The SSA entity responsible for processing the Forms 9409 is the Office of Central
Operations (OCO) under the Deputy Commissioner of Operations. We performed our
audit at OCO in Baltimore, Maryland, and the Office of Audit in Philadelphia,

1
 The MEF contains all earnings data reported by employers and self-employed individuals. The data are
used to determine eligibility for and the amount of Social Security benefits.
2
 The ESF is an electronic file that houses reported earnings that cannot be associated with an individual's
name and/or Social Security number (SSN).
3
  SSA uses the ICOR process to maintain accurate postings to individuals’ earnings record. ICOR allows
the Agency to add unposted earnings and change or delete posted earnings on workers’ MEF records.
ICOR also permits the movement of posted earnings to and from the ESF.
4
   The Numident file houses records of original and replacement SSN cards issued over an individual's
lifetime, as well as identifying information such as date of birth, place of birth, and parents' names.


                                                    C-1
Pennsylvania, between December 2006 and October 2007. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                        C-2
                                                                                    Appendix D

Sampling Methodology and Results
To complete our objective, we reviewed the Social Security Administration's (SSA)
paper files of IRS/SSA Wage Worksheet (Form 9409) related to Tax Year (TY) 1999.
Based on our review, we identified 12,002 referrals related to TY 1999. We selected a
random sample of 200 Forms 9409 from TY 1999 totaling approximately $2 million in
wages and analyzed each Form 9409 using information from the Master Earnings File
       1                                2                            3              4
(MEF), Earnings Suspense File (ESF), Item Correction 2.8 (ICOR), and Numident.
Using this information, we determined whether the Agency had removed overstated
wages from the numberholder’s (NH) earnings record, transferred wages to another
person’s earnings record, or returned the Forms 9409 to the Internal Revenue Service
because the information did not match SSA’s records. Further, we determined whether
SSA had taken appropriate action for other questionable wages not included in the
Forms 9409. 5




1
 The MEF contains all earnings data reported by employers and self-employed individuals. The data are
used to determine eligibility for, and the amount of, Social Security benefits.
2
 The ESF is an electronic file that houses reported earnings that cannot be associated with an individual's
name and/or Social Security number (SSN).
3
  SSA uses the ICOR process to maintain accurate postings to individuals’ earnings records. ICOR allows
the Agency to add unposted earnings and change or delete posted earnings on workers’ MEF records.
ICOR also permits the movement of posted earnings to and from the ESF.
4
   The Numident file houses records of original and replacement SSN cards issued over an individual's
lifetime, as well as identifying information such as date of birth, place of birth, and parents' names.
5
  We reviewed NHs’ earnings records for TYs 1995 to 2005 to determine whether additional wages from
the same employer were posted for years before and after the disputed tax year.

                                                    D-1
                       Wage Referral Projections
Sample population—Number of Wage Referrals                  12,002
Sample Size                                                    200
     Sample Results and Projections – Processed Wage Referrals
                         Attribute Projection
Sample cases—Wage Referrals Processed by SSA                   183
Projection—Wage Referrals Processed by SSA                  10,982
Projection lower limit                                      10,509
Projection upper limit                                      11,340
                          Variable Projection
Sample cases—Wage Referrals Processed by SSA            $1,763,870
Projection—Wage Referrals Processed by SSA           $105,849,839
Projection lower limit                                $90,293,548
Projection upper limit                               $121,406,129

Sample Results and Projections – Other Similar Questionable Wages
                        Attribute Projection
Sample cases—Other Questionable Wages                           49
Projection—Other Questionable Wages                          2,940
Projection lower limit                                       2,352
Projection upper limit                                       3,597
                        Variable Projection
Sample cases—Other Questionable Wages                   $1,206,199
Projection—Other Questionable Wages                    $72,383,974
Projection lower limit                                 $43,476,977
Projection upper limit                                $101,290,972
Note: The projections were made at a 90-percent confidence level.




                                         D-2
                                                                                    Appendix E

Social Security Administration Procedures for
Processing Internal Revenue Service Wage
Referrals
Each year, the Internal Revenue Service (IRS) sends IRS/SSA Wage Worksheet
(Form 9409) to the Social Security Administration (SSA) stating the wages reported
under a specific Social Security number (SSN) do not belong to the numberholder. The
IRS then notifies SSA via Form 9409 to correct the individual’s earnings record. In
most instances, a technician in the Division of Earnings Record Operations will move
the earnings to the Earnings Suspense File (ESF) 1 or to another SSN shown on the
Form 9409 via the Item Correction (ICOR) system. 2 Upon receiving the Form 9409, a
SSA technician will 3

•
                                                                                                          4
    review Form 9409 for acceptability (validate information against the Numident file);
•   obtain a Detail Earnings Query (DEQY) 5 for the SSN(s) and Tax Year (TY) shown
    on the Form 9409;
•   make adjustment via ICOR, if applicable;
•   send the individual a standard notice to inform them of the change;
•   release adjustment/clear case; and
•   place Form 9409 in holding file for 90 days.




1
 The ESF is an electronic file that houses reported earnings that cannot be associated with an individual's
name and/or SSN.
2
  SSA uses the ICOR process to maintain accurate postings to individuals’ earnings records. ICOR allows
the Agency to add unposted earnings and change or delete posted earnings on workers’ Master Earnings
File (MEF) records. ICOR also permits the movement of posted earnings to and from the ESF.
3
 Revised Office of Central Operations Instruction, Processing IRS/SSA Wage Worksheet-Form 9409,
April 12, 2004.
4
   The Numident file houses records of original and replacement SSN cards issued over an individual's
lifetime, as well as identifying information such as date of birth, place of birth, and parents' names.
5
  The DEQY is an immediate response online query that displays requested earnings information and
related data. The data displayed are extracted from the MEF and/or the Employer Identification File.

                                                    E-1
If the disputed wages do not appear on the DEQY or if the wages are not covered, the
technician should not process the wage referral. Furthermore, the technician should
return the Form 9409 to the IRS for the following reasons:

•   missing SSN and/or TY,
•   missing TY and wages,
•   missing address for the taxpayer, and
•   name and SSN does not validate to the Numident file.




                                         E-2
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:       May 19, 2008                                                          Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       David V. Foster /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Follow-Up: The Social Security
            Administration’s Processing of the Internal Revenue Service’s Overstated Wage Referrals”
            (A-03-07-17067)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the recommendations is
           attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S PROCESSING OF
THE INTERNAL REVENUE SERVICES’ OVERSTATED WAGE REFERRALS”
(A-03-07-17067)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Review and process the wage referrals for the five sample cases of unprocessed Internal Revenue
Service (IRS) wage referrals discussed in the report.

Comment

We agree. We will review and process the five sample cases within five work-days of receipt.

Recommendation 2

Review the questionable wage items for the 49 cases identified in this audit where wages may
need to be removed from individuals’ earnings records to prevent future improper payments.

Comment

We agree. We will review and process the 49 questionable cases. A review of the 49 cases will
assist us in determining: 1) if procedure modifications are required; and 2) the impact on the
operating component responsible for processing the work and the impact on supporting
components.

Recommendation 3

Modify current policy and procedures for wage referrals to: a) require that staff annotate in the
Item Correction System when a Numberholder (NH) disclaims wages because of identity theft
and; b) expand the review of the NH’s earnings record to include years before and after the year
in question to ensure compliance with Program Operation Manual System (POMS). This will
assist with determining whether additional questionable earnings are posted to the NH’s record.
If so, have the appropriate office conduct further earnings development to determine if these
wages should be removed from the NH’s earnings record.

Comment

We agree. By May 31, 2008, we expect to have revised policy updating RM 03870.057, which
details the policy and procedure for when earnings may be transferred, ready to be published in
the POMS. We will further explore electronic ways to expand the review of the years before and
after the questionable years on the record.




                                               F-2
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director (215) 597-0572

   Carol Madonna, Audit Manager (215) 597-1485

Acknowledgments

In addition to those named above:

   Francis Trzaska, Auditor-in-Charge

   Virginia Harada, Senior Auditor

   Mildred Soto, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-07-17067.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and
procedures, internal controls, and professional standards, the OIG also has a comprehensive Professional
Responsibility and Quality Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
